<html>
<title> - FIELD HEARING ON YOUTH SUICIDE PREVENTION</title>
<body><pre>[Senate Hearing 109-66]
[From the U.S. Government Printing Office]



                                                  S. Hrg. 109-66, Pt. 1

                        YOUTH SUICIDE PREVENTION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

  FIELD HEARING ON THE CONCERNS OF TEEN SUICIDE AMONG AMERICAN INDIAN 
                                 YOUTH

                               __________

                              MAY 2, 2005
                       STATE CAPITOL BUILDING, ND

                               __________

                                 PART 1


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-299                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Dauphinais, Paul, school psychologist, Turtle Mountain 
      Schools....................................................    25
    Dorgan, Hon. Byron L. U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     1
    Eagle Shield, Elena, freshman, Standing Rock Community School    18
    Fast Horse, Michelle, senior, Standing Rock Community School.    15
    Grim, Charles, director, Indian Health Service...............     3
    Hines, Vaquita, junior, Standing Rock Community School.......    17
    Lindquist-Mala, Cynthia, president, Cankdeska-Cikana 
      Community College, Fort Totten.............................    28
    McDonald, Justin, director, Indians Into Psychology Program, 
      University of North Dakota.................................    23
    Middlebrook, Denise, public health analyst, Substance Abuse 
      and Mental Health Services Administration..................     6
    Perez, Jon, director, Division of Behavorial Health Services, 
      Indian Health Service......................................     3
    Pomeroy, Hon. Earl, U.S. Representative from North Dakota....     2
    Shamwell, Ulonda, division director, Office of Policy, 
      Planning Budget, Substance Abuse and Mental Health Services 
      Administration.............................................     6
    Yellow Bird, Doreen, journalist and family member, Arikara 
      Nation.....................................................    14

                                Appendix

Prepared statements:
    Forth, Dave (with attachment)................................    35
    Gipp, Brittany, Standing Rock Sioux Reservation..............    39
    Gipp, Robert, Standing Rock Sioux Reservation (with 
      attachment)................................................    41
    Hall, Tex G., chairman, Mandan, Hidatsa and Arikara Nation...    33
    Murphy, Charles W., chairman, Standing Rock Sioux Tribe (with 
      attachment)................................................    46
    Shamwell, Ulonda.............................................    48
    Two Eagle, Auntie Carol......................................    59
Additional material submitted for the record:
    North Dakota Adolescent Suicide Prevention Project, Mark 
      LoMurray, Project Director.................................    64
    Plenty Chief-Brown, Minnie, enrolled member, Standing Rock 
      Sioux Tribe, letter........................................    70

 
               FIELD HEARING ON YOUTH SUICIDE PREVENTION

                              ----------                              


                          MONDAY, MAY 2, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met pursuant to notice, at the Brynhild 
Haugland Room, North Dakota State Capitol Building, Hon. Byron 
Dorgan (vice chairman of the committee) presiding.
    Present: Senator Dorgan and Representative Pomeroy

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. The hearing will come to order.
    Ladies and gentlemen, thank you very much for being here. 
This is a hearing of the U.S. Senate Committee on Indian 
Affairs, it is an official hearing of the committee. My name is 
Byron Dorgan, I am vice chairman of the committee. The chairman 
is Senator John McCain from the State of Arizona. We are 
conducting this hearing with the consent of Senator McCain and 
the rest of the committee.
    I am joined today by the Chief of Staff of Senator McCain 
on the Committee on Indian Affairs, Jeanne Bumpus, right over 
here, and the Chief of Staff on the minority side is Sara 
Garland. I am also joined by my colleague, Congressman Earl 
Pomeroy, who, although not a member of the Committee on Indian 
Affairs, by consent of the committee is going to sit in today 
and be a part of this. I am very pleased that Congressman 
Pomeroy could join us, because he too is concerned about this 
important issue.
    I do want to make a couple of opening comments, and then we 
have three panels of witnesses who will testify today. If there 
is time following that, I would like to open it up for some 
additional comments.
    First, let me say that the topic of this hearing is teen 
suicide on reservations. It is a difficult and very sensitive 
issue and frankly, not easy to talk about. I suspect everyone 
in this room would prefer that we not have to talk about it. 
But we find ourselves in the midst of very serious problems 
that are not going to go away, and I think we do a disservice 
by not confronting this, looking it in the eye and trying to 
determine what can we do about it.
    I am shocked by some of the statistics that one reads. Teen 
suicides on Indian reservations are double those in the rest of 
our country. In the northern Great Plains, they are 10 times 
that of the rest of the country. It is a very serious problem. 
And I think everyone who is in this room gathered for this 
hearing understands the wrenching heartbreak and the senseless 
loss of these young boys and girls who have their entire lives 
before them, but then decide to take their lives.
    I will make every effort at this hearing to be sensitive 
and responsible in how this information is conveyed to the 
public. I know you will as well. But I must tell you, I am no 
longer comfortable on a range of very sensitive and serious 
issues to be quiet and just say, well, what's happening is 
happening and we're a little worried about talking about it 
publicly. I am worried about not doing enough to save the lives 
of these young boys and girls. I am worried that we do not 
devote the resources, we do not have the strategies that are 
necessary to save the lives of these young boys and girls.
    With the consent of the family, last year I spoke on the 
floor of the Senate about a young girl named Avis Little Wind 
who took her life. She was 14 years old. She lived on a 
reservation here in North Dakota. I not only spoke about that 
on the floor of the Senate with their consent, I also went to 
that reservation and met with school officials, this little 
girl's classmates, people involved in mental health, people 
from the tribal authorities, to try to understand what causes 
this sort of thing.
    I discovered from that that there is a lot we don't know. I 
also discovered that some of the basic resources that need to 
be available to reach out to help these young people are not 
available. We need to fix that. There is nothing more precious 
in this country than our children.
    So I am holding this hearing, we have a group of witnesses 
that is pretty diverse, from a 15-year old high school student 
to the head of the Indian Health Service in Washington, DC. And 
we hope to receive guidance, expert advice, insight and from 
that try to develop some strategies that we think will work to 
save lives.
    Let me now call upon my colleague, Congressman Pomeroy, and 
again, thank him for being with us today.

STATEMENT OF HON. EARL POMEROY, U.S. REPRESENTATIVE FROM NORTH 
                             DAKOTA

    Mr. Pomeroy. Thank you, Mr. Chairman.
    I am very pleased that you are having this Indian Affairs 
hearing here in Bismarck, to elicit direct testimony on this 
extremely troubling issue of teen suicides on our reservations. 
I could not agree with you more strongly that although it is 
difficult to talk about, we need to have a better understanding 
of what is happening, so that we can respond to it.
    I believe that we need to look carefully at the funding of 
mental health resources available to young people on our 
reservations, possibly there is some Federal culpability in 
this problem. We have to understand it before we can figure out 
how to appropriately address it. That's why this hearing is so 
important. I appreciate your letting me participate this 
morning. I was able to rearrange my schedule upon hearing that 
you would be here. I just think there is nothing more important 
before us than the topic you have advanced today, and I look 
forward to the testimony.
    Senator Dorgan. Congressman Pomeroy, thank you very much.
    Prior to the first panel coming forward, I am going to ask 
Cecelia Myerion with the Turtle Mountain Chippewa Tribe to 
offer the opening prayer.
    Ms. Myerion. I am going to be praying in Chippewa. The 
Creator knows all languages, so you can just pray with me.
    [Prayer offered in native tongue.]
    Ms. Myerion. Megwich. Thank you.
    Senator Dorgan. Cecelia, thank you very much.
    Now we will ask the Two Nation Drummers to come forward.
    [Drumming presentation.]
    Senator Dorgan. That was Dave Ripley and Dennis Bursey.
    Thank you very much.
    Let me call panel 1 to the table, if I might. Charles Grim, 
director, Indian Health Service. He is accompanied by Jon 
Perez, director, Behavioral Health, Indian Health Service. We 
also have Ulonda Shamwell, division director, Office of Policy 
Planning and Budget and Substance Abuse and Mental Health 
Services Administration, accompanied by Dr. Denise Middelbrook, 
public health analyst in the same Substance Abuse and Mental 
Health Services Administration.
    Let me thank all of you for coming to Bismarck, ND today, 
and let me call first on Dr. Grim, the head of the Indian 
Health Service. Dr. Grim, you may proceed.

  STATEMENT OF CHARLES GRIM, DIRECTOR, INDIAN HEALTH SERVICE; 
              ACCOMPANIED BY JON PEREZ, DIRECTOR, 
             DIVISION OF BEHAVIORAL HEALTH SERVICES

    Mr. Grim. Thank you, Senator Dorgan. Good morning. I am 
Charles Grim, director, Indian Health Service. Today I am 
accompanied by Jon Perez, our director for the Division of 
Behavioral Health Services.
    We thank you for giving us this opportunity to testify on 
teen suicide among American Indian youth, and I do agree with 
you that it is time that we began discussing this issue with 
all our communities and children become more aware about it and 
what we can do to treat it.
    I would ask that you enter my written statement for the 
record.
    Senator Dorgan. Without objection.
    Mr. Grim. Suicide in Indian country, in contrast to most of 
the rest of the U.S. population, is characterized by higher 
rates, and from younger people, very often affecting entire 
communities as a result of suicide clustering. We would also 
like to share with you our concerns and efforts related to the 
recent tragic events at Red Lake. Earlier last month, I visited 
the Red Lake Chippewa Reservation in Minnesota and witnessed 
first-hand the results of the devastation brought about by the 
shootings at the Red Lake High School.
    I also saw the community uniting and drawing strength from 
the support of mental health professionals and tribal spiritual 
leaders. In the midst of the trauma and upheaval that was 
caused by the shootings, there is still a sense of hope an a 
spirit of collaboration among the community, the tribal 
leaders, and State and Federal programs.
    The IHS is working closely with the Substance Abuse and 
Mental Health Services Administration, the Administration for 
Children and Families, the Administration for Native Americans 
and the Office of Minority Health to bring the resources of the 
Department to bear on that tribe and the tragedy that just 
recently occurred. The question that we need to ask is how do 
we prevent such incidents from occurring in the first place. 
First, the Indian Health Service is focusing on screening and 
primary prevention in our mental health programs, especially 
for depression, which manifests itself in suicide, domestic 
violence and addictions.
    Second, we focus on the effective utilization of treatment 
modalities that are available, and we are seeking to improve 
the documentation of mental health problems. IHS is currently 
utilizing effective tools for documentation to the behavioral 
health software package. We work with communities who are 
focusing more on these mental health needs. With about 80 
percent of the mental health budget and about 97 percent of our 
alcohol and substance abuse budget from the Indian Health 
Service going directly to tribes operating their own programs, 
now the tribes and communities themselves are taking 
responsibility for their own healing.
    Suicide is not a single problem, but rather is a single 
response to multiple problems. Neither is it strictly a 
clinical nor an individual problem, but one that affects and is 
affected by entire communities. Quoting from the Institute of 
Medicine's landmark 2002 publication, Reducing Suicide:

    Suicide may have a basis in depression or substance abuse, 
but it simultaneously may relate to social factors like 
community breakdown, loss of key social relations, economic 
depression or political violence.

    This is particularly true in Indian country. To address it 
appropriately requires public health and community 
interventions as much as direct clinical ones.
    In late September 2003, I announced the IHS National 
Suicide Prevention Initiative. It is designed to directly 
support the Indian Health Service Tribal and Urban programs in 
three major areas associated with suicide in our communities. 
First, to mobilize tribes and tribal programs to address 
suicide in a systematic, evidence-based manner; second, to 
expand and enrich research and program bases; and third, to 
support and promote programmatic collaborations on suicide 
prevention.
    Over the last 1\1/2\ years, a substantial progress has been 
made to developing plans and programs, but it is only the 
beginning of what must be a long-term, concerted and 
coordinated effort among Federal, tribal, State, and local 
community agencies to address the crisis. The initiative 
addresses all 11 goals of the National Strategy for Suicide 
Prevention. It also extends or enhances work between tribal 
communities, local, State, and Federal agencies and now even 
includes the greater tribal indigenous populations of North 
American through our ongoing partnerships with Health Canada 
and First Nations Inuit Health Branch.
    Let me summarize briefly some of the efforts we have taken 
in each of the three major areas. As over 80 percent of the IHS 
mental health budget goes directly to tribes, it is clear that 
tribes, not IHS, are now primarily providing services to their 
communities. IHS now seeks to support those direct services 
with programs and program collaborations to bring resources and 
methodologies to the communities themselves.
    The IHS National Suicide Prevention Committee was empaneled 
in February 2004 to help guide the overall IHS tribal effort. 
Composed of primarily tribal behavioral health professionals 
from across the country, it served not only to assist in 
providing direction for efforts, but also to provide 
representative membership in some of the specific programs that 
have been developed. IHS is currently working with our areas, 
our tribal communities and States to establish area-wide 
suicide surveillance and prevention systems, in collaboration 
with the BIA and States to collect information from law 
enforcement and medical examiner data bases. This will 
supplement our IHS behavioral health management software, to be 
able to gather information from tribal and IHS communities.
    We are strengthening the partnerships between State and 
Federal representatives in the area of suicide prevention. We 
have IHS representatives who are now members of State suicide 
prevention teams and coalitions in many States throughout the 
country to ensure that American Indian and Alaska Natives are 
providing access to State services. We have participated in 
work groups to improve suicide prevention and intervention 
activities and provided outreach to attempters, families, and 
communities.
    We have also begun to train laypersons from the community 
in a program called QPR, Question, Persuade and Refer, to act 
as gatekeepers. We have involved American Indian and Alaska 
Native youth in suicide prevention efforts, primarily through 
school programs and curriculums and Boys and Girls Clubs. We 
have provided workshops and forums on suicide prevention and 
one IHS area, the Aberdeen area, has a QPR initiative to assure 
competency for non-mental health providers to identify and 
respond appropriately to suicidal behaviors.
    Research into suicide in Indian country is limited, and 
what research is available suggests that suicide in our 
communities differs in substantial ways from other racial and 
ethnic groups, suggesting younger and more impulsive suicide 
attempts than other populations. To that end, IHS is 
collaborating with the National Institute of Mental Health, 
Health Canada, and the Canadian Institute for Health Research 
on a multi-year effort to better understand suicide in Indian 
country and to develop evidence-based interventions for 
prevention. Staff from those agencies have been working for 
over 1 year to develop this initiative, and its first 
international meeting will be held this September in 
Albuquerque, NM. The purpose is to bring together researchers, 
clinicians, program personnel, wisdom keepers, and governmental 
representatives from North America to begin a 5-year 
interagency, and indeed, international effort, to develop a 
concrete research agenda and to develop specific programs for 
our indigenous populations.
    Finally, SAMHSA and Indian Health Service have created a 
national suicide prevention intervention team for Indian 
country. Composed of one person from each IHS Area, these 
personnel are currently being trained in community suicide 
prevention and mobilization. Once trained, they will be able 
to, in turn, train personnel in tribal communities to provide 
suicide prevention programming, including materials, 
techniques, and protocols. Training should be completed by 
summer and the team members will be ready to begin supporting 
communities at that time. This will also be a multi-year 
collaboration which we hope to expand as resources allow.
    In summary, I think we are engaged in a battle for hope. 
For those young people who see only poverty, social and 
physical isolation, lack of opportunity, or familial 
dissolution, hope can be lost and self destructive behavior 
becomes a natural consequence. The initiative and programs I 
have described are some of the methods and means to restore 
that hope and engage youth and their communities to sustain and 
nurture. While they might not be sufficient change many 
peoples' living conditions, we can by working together, among 
Federal agencies, branches of government, tribes, States, and 
the local communities, turn the tide to restore hope to our 
youth. To that end, I commit to work with you and the 
committee, as well as others, to bring services and resources 
to that effort.
    Mr. Chairman, this concludes my statement. Thank you for 
this opportunity to discuss what the IHS and tribal programs 
are doing to help the impact of suicide in our communities.
    Senator Dorgan. Dr. Grim, thank you very much for your 
testimony.
    Next we will hear from Ulonda Shamwell, of the Substance 
Abuse and Mental Health Services Administration. Ulonda, why 
don't you proceed.

        STATEMENT OF ULONDA SHAMWELL, M.S.W., DIVISION 
       DIRECTOR, OFFICE OF POLICY, PLANNING AND BUDGET, 
  SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION; 
              ACCOMPANIED BY DENISE MIDDLEBROOK, 
                     PUBLIC HEALTH ANALYST

    Ms. Shamwell. Good morning, Mr. Chairman and members of the 
committee. I am Ulonda Shamwell, from the Office of Policy, 
Planning and Budget at the Substance Abuse and Mental Health 
Services Administration, within the Department of Health and 
Human Services. I am pleased to offer testimony this morning on 
behalf of A. Katharine Power, Director of SAMHSA's Center for 
Mental Health Services, CMHS. Ms. Power testified before this 
committee on April 13, 2005, about suicide and violence among 
American Indians and Alaska Natives. Unfortunately, she was 
unable to testify today, but sends her regards.
    Accompanying me today is my colleague, Dr. Denise 
Middlebrook, Social Science Analyst, who is available to answer 
questions.
    Mr. Chairman, before proceeding with my oral statement, I 
ask that my written testimony be included in the record.
    Thank you for the opportunity to describe how SAMSHA is 
working to provide effective mental health and substance abuse 
treatment services along with substance abuse prevention and 
mental health promotion services in Indian country. It is also 
a privilege to testify along with Dr. Charles Grim, Director of 
Indian Health Service, this morning. SAMSHA and IHS have 
developed a strong partnership, reflected in our current 
interagency agreement to work efficiently and effectively 
together to help meet the public health needs of American 
Indians and Alaska Natives.
    My testimony will focus on two issues of great concern for 
the public health of American Indian and Alaska Native youth. 
These two issues are suicide and violence. Sorrowfully, there 
are real-life examples to illustrate the impact of suicide and 
violence in Indian country. Recently, a suicide cluster 
occurred on the Standing Rock Reservation in North and South 
Dakota. Ten young people took their own lives and dozens of 
other attempted to do so. More young people are continuing to 
do so.
    Tragically, many other reservations have similar stories to 
tell. Suicide is now the second leading cause of death, behind 
unintentional injury and accidents, for American Indian and 
Alaska Native youth ages 15-24. The suicide rate for this 
population is 2\1/2\ times higher than the national average. 
American Indians have the highest rate of suicide among all 
ethnic groups in the United States, with a rate of 14.8 per 
100,000, as reported in 1998. Rates are highest in the northern 
plains, Pacific Northwest and Alaska areas, five to seven times 
higher than the overall U.S. rate. More than one-half of all 
persons who commit suicide in Indian country have never been 
seen by a mental health provider.
    In studies that examine risk factors among people who have 
completed suicide, substance abuse occurs more frequently among 
youth and younger adults, compared to older adults. For 
particular groups at risk, such as American Indians and Alaska 
Natives, depression and Substance abuse are the most common 
risk factors for completed suicide. Mental health and substance 
abuse disorders are also risk factors for violence.
    According to the National Center for Injury and Prevention 
Control within the Centers for Disease Control and Prevention, 
injuries and violence account for 75 percent of all deaths 
among Native Americans ages 1-19. As I mentioned earlier, 
suicide is the second leading cause of death for Indian youth 
ages 15-24, followed by homicide, the third leading cause of 
death for the same age group.
    A recent example of violence in Indian country is the 
tragedy at Red Lake. A 16 year old junior at the Red Lake High 
School on the Red Lake Reservation in Minnesota took the lives 
of 9 others and then his own on March 21, 2005. The 16 year old 
shot and killed his grandfather, his grandfather's partner, 5 
students, a teacher, security office, and himself. Since this 
event, there have been 2 more confirmed suicides and a number 
of attempts.
    The statistical picture on the Red Lake Reservation, home 
to about 5,000 tribal members, is well below the national 
average and below that of many other reservations. Red Lake 
Nation is an impoverished community; 39 percent of the 
population lives below the poverty line. Four out of five 
students at Red Lake High School qualify for free or reduced 
fee lunch. One-third of the teenagers on the reservation are 
not in school, not working and not looking for work, compared 
to that of about 20 percent of all reservations.
    A survey last year by the Minnesota Department of Health 
and Education found that young people on the Red Lake 
Reservation are far more likely to think about suicide, be 
depressed, worry about drugs and be violent with one another 
than children across the State. A State survey of 9th graders 
found that at Red Lake High, 43 percent of the boys and 82 
percent of the girls had thoughts about suicide, with 20 
percent of the boys and 48 percent of the girls saying that 
they had tried it at least once. This event has led to 
community trauma and turmoil. Unfortunately, this condition is 
repeated on reservations across the Nation.
    SAMHSA focuses attention, programs and funding on improving 
the lives of people with or at risk for mental and substance 
abuse disorders. Consistent with President Bush's new Freedom 
Initiative, SAMHSA's vision is a life in the community for 
everyone. The agency is achieving that vision through the 
mission, building resilience and facilitating recovery. 
SAMHSA's direction and policy program and budget is guided by a 
matrix of priority programs and cross-cutting principles that 
include the related issues of cultural competency and 
eliminating disparities.
    To achieve the agency's vision and mission for all 
Americans, SAMHSA-supported services are provided within the 
most relevant and meaningful cultural, gender-sensitive and 
age-appropriate context for people being served. SAMSHA has put 
this understanding into action for American Indian and Alaska 
Native communities that it serves. It is important to note also 
that it is SAMSHA Administrator Charles Curry's policy to level 
the playing field and to ensure that tribal entities are 
eligible for all competitive grants for which States are 
eligible, unless there is a compelling reason to the contrary.
    In total, SAMHSA provides about $42 million to American 
Indian and Alaska Natives annually. SAMHSA's Center for Mental 
Health Services is transferring $200,000 to IHS to support 
programming and service contracts, technical assistance and 
related services for suicide cluster response and suicide 
prevention among American Indians and Alaska Natives. One 
example is the development of a community suicide prevention 
tool kit. This tool kit will include information on suicide 
prevention, education, screening, intervention and community 
mobilization, which could be readily available to American 
Indian and Alaska Native communities via the web or other 
digitally-based media for off-the-shelf use.
    To better assist tribal organizations, SAMSHA funded a $1-
million grant that was awarded to the Oregon Health and Science 
University to establish the One Sky Center, an American Indian 
and Alaska Native national resource center. The One Sky Center 
provides technical assistance, training, information 
dissemination and communication to increase substance abuse 
prevention and treatment knowledge and skills among service 
providers, policy makers, tribal communities, funding 
organizations and consumers.
    Today, the One Sky Center is a national resource center 
that, in addition to its many other services, maintains a 
comprehensive list of American Indian and Alaska Native 
programs that are currently funded by SAMSHA. The One Sky 
Center is currently providing technical assistance to Standing 
Rock community by providing them with assistance and requesting 
SAMHSA's emergency response grant for immediate and 
intermediate emergency funds.
    SAMSHA also collaborates with IHS and the National 
Institute of Mental Health within the National Institutes of 
Health on the Circles of Care grant program. The Circles of 
Care grant program supports the implementation of mental health 
service models designed by American Indian and Alaska Native 
tribal and urban Indian communities that utilize a system of 
care, community-based approach to mental health and other 
supportive services for American Indian and Alaska Native 
children with serious emotional disturbances and their 
families.
    SAMHSA's Community Mental Health Services for Children and 
Their Families grant program provides funding for direct 
Services to improve systems of care for children and 
adolescents with serious emotional disturbances and their 
families. Seven tribal organizations are among the current 63 
grantees.
    Additionally, SAMSHA, under the authority of the Garrett 
Lee Smith Memorial Act, has announced funding in 2005 for two 
programs. The first is the cooperative agreements for State-
tribal sponsored youth suicide prevention and early 
intervention programs, which will provide $5.5 million for 14 
awards, with a minimum of one award that will be made to an 
American Indian or Alaska Native Tribe, tribal organization or 
urban Indian organization. Second is the campus suicide 
prevention grants, that will provide $1.5 million for 20 
awards. The receipt dates for both of these awards is June 1.
    SAMHSA also has an announcement for a cooperative agreement 
for suicide prevention resource center grant that provides $2.6 
million annually for up to 5 years. The receipt date is also 
June 1.
    SAMHSA takes seriously the current challenge in Indian 
country, which includes few trained service providers, major 
transportation barriers and multi-generational poverty. SAMHSA 
is being proactive in addressing these challenges that rob 
communities of their most valuable resource: Their children and 
their future. The vital treatment and prevention efforts that I 
have discussed today are designed to address these problems and 
are improving services for American Indian and Alaska Native 
children, youth and their families.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to appear today. I will be pleased to answer 
any questions you may have.
    [Prepared statement of Ms. Shamwell appears in appendix.]
    Senator Dorgan. Ms. Shamwell, thank you very much.
    Let me ask a few questions. I do want to introduce tribal 
leaders who are here, let me do that following this panel to 
introduce who is with us, the elected tribal leaders. Let me 
ask Dr. Grim and Ms. Shamwell, both of you are talking about 
grant programs and tool kits and a wide range of issues. In 
addition, you describe intervention teams. Can you tell me the 
nature of these intervention teams, the size of the teams, who 
is putting them together, when are they available? What kinds 
of uses are being made of these intervention teams?
    Mr. Grim. I'll start out, and then I will ask if Dr. Perez 
has anything to add on. In the last several years, when we have 
had suicide clusters that occur in communities, what we have 
done is send in a team of mental health specialists and/or 
social workers. They come in and they essentially search 
capacity, give the community search capacity in mental health 
for the current crisis that is occurring. They go in and work 
with the community in a variety of ways. For example, they 
would set up centers in the hospital or the clinic in the town, 
they would set up centers, perhaps in other communities within 
the reservation, if there are multiple communities, to allow 
people to just walk in and get that sort of assistance.
    More recently, in the Red Lake crisis that occurred, we 
sent teams out into the community, actually to go home to home, 
because people did not want to come out to the centers and 
speak, but they wanted to speak at home with their families all 
present. So we started doing that. One of the things that the 
QPR concept works under, or one of the background philosophies, 
is that people that need the counseling or need help that are 
considering suicide will not often go to a place that is going 
to give them help and try to talk them out of it if they are 
very seriously considering it.
    So they worked with the Red Lake community members in that 
concept, to help make more people aware of the signs and 
symptoms. The size of the team varies along with the size of 
the community. We try to put together a team of sufficient size 
to address the issues. We will send them in for a couple of 
weeks to a couple of months, depending on the nature of the 
crisis and how many people are using those teams. We try to 
leave behind any information and any sorts of tool kits or 
other advice to the communities.
    Senator Dorgan. Dr. Perez, do you have anything to add to 
that?
    Mr. Perez. The only thing that I would add is, the teams 
are invited or requested. It is not something that we are going 
to immediately send in without being invited. There are lots of 
places, lots of communities that really much prefer to respond 
to their crises on their own. But it is a service that is 
available for them, at their request.
    Senator Dorgan. Isn't it the case that we are pretty 
dramatically underfunded in a lot of these areas? The reason I 
ask that question is, and when I talked to you about the Avis 
Little Wind case, one trained psychologist, I believe, and Ms. 
Shamwell, you mentioned transportation at the end of your 
testimony. In the circumstances where you go talk to these 
folks, they say, we are just dramatically understaffed, we do 
not have the transportation capabilities to move a child some 
place where they need to be moved to get the help. So when you 
take a look at the whole system, it appears to me that we just 
don't have the resources out there.
    I told you, Dr. Grim, during the testimony that you 
provided to our committee in Washington, we have 
responsibilities for health care for Federal prisoners. Then we 
have trust responsibility for health care for American Indians. 
We are talking here about mental health. We spend exactly twice 
as much money per capita providing health care to Federal 
prisoners as we do meeting our trust responsibility to provide 
health care for Native Americans.
    Isn't it the case that when you look at this with the 
transportation, trained professionals and so on, in most cases 
with most reservations, we do not have the resources? Would you 
agree with that, Dr. Grim?
    Mr. Grim. I think that over the last decade, that people 
have come to accept mental health treatment more and more in 
this country as a whole, not only in our population. So many of 
our mental health programs, while they may have been 
satisfactory a number of years ago, when mental health 
treatment was not sought as often, I think now many of our 
programs are working at full steam, they have having triaged 
care, they are dealing only with some of the most urgent cases. 
And certainly when a suicide cluster begins to appear in a 
community, I would hesitate to guess, but I doubt any of our 
facilities are sufficiently staffed to deal with a suicide 
cluster crisis when it occurs, which is why we have tried to 
develop some team search capacity to allow a community to have 
that help if they so desire.
    Senator Dorgan. Ms. Shamwell.
    Ms. Shamwell. I would defer to Dr. Middlebrook.
    Senator Dorgan. Dr. Middlebrook.
    Mr. Middlebrook. On the SAMHSA side of work that we have 
been doing here with Standing Rock, we deployed myself and Dr. 
Gale Walker from One Sky Center, it was a couple of months ago, 
I think it was, 2 or 3 months ago, we came in and conducted 
needs assessment with the community members. We identified key 
community members and worked with local IHS folks to determine 
the extent of the problems, what the needs were for the 
community, what types of follow-up were done following the 
suicides.
    We clearly heard the issue of transportation as being one 
of them, the issue of inability, with great distances between 
the eight communities on the reservation, the inability to 
really provide adequate follow-up because of the extent of the 
crisis and the number of people involved, with very few human 
resources in order to do the follow-up.
    We also heard needs around safe housing for kids, places 
for kids to go when they felt that they could not go home, when 
they were at risk. And so Dr. Walker developed a resource book 
and a complete report that he put together for us, that 
definitely outlines the issues and has recommendations in it. 
We could certainly make that available to you.
    Senator Dorgan. What I would like to get from the Indian 
Health Service and perhaps your organization, Ms. Shamwell, I 
would like to get a description of the resources available on 
each reservation. Because early prevention is what is going to 
save lives here. If a young child is missing 90 days of school, 
lying in bed in a fetal position, in desperate condition, 
somebody needs to be available to provide help. There needs to 
be early warning to deal with these circumstances. At least my 
cursory observation is, the resources by and large on a day to 
day basis, forgetting about clusters here, on a day to day 
basis, the resources are horribly inadequate to deal with the 
problem.
    So Dr. Grim, could I have your staff get for me some kind 
of analysis of what kinds of mental health services are 
available reservation by reservation?
    Mr. Grim. Yes; I can do that, and I also want to thank you 
and let the people here know that Senator Dorgan helped us get 
some additional money to deal with the Standing Rock crisis. We 
very much appreciated that.
    Senator Dorgan. I think tool kits, intervention teams, all 
these things are hopeful I think, and helpful in addressing 
what is the problem. But I think I also need to understand, 
what are the larger sets of resources available.
    Mr. Grim. We can do that.
    Senator Dorgan. Let me call on Congressman Pomeroy.
    Mr. Pomeroy. Thank you for your testimony. One thing that 
disturbs me a little is that I'm not hearing the level of 
urgency that I think the situation deserves. Maybe it is simply 
the form of testimony, but there are things in each of your 
statements that I find a little troubling. Candid, but 
troubling.
    I find Dr. Grim, on page 6 of your testimony, research into 
suicide in Indian Country is limited, but research is available 
to suggest suicide in our communities differs in substantial 
ways from other racial and ethnic groups. Then you talk about a 
collaborative effort that is leading to a 5-year study, the 
first conference to be held in September. It seems as though, 
given the statistics that show suicide is particularly 
problematic for this population, if we don't really understand 
it, we ought to have perhaps an accelerated effort beyond what 
the statement would reflect.
    And as to SAMHSA's response, Ms. Shamwell, I am trying to 
figure out from the statistics you provided here: You provide 
$42 million to American Indians and Alaska Natives generally, 
but you then indicate $200,000 has been provided in support of 
programming and services to deal with suicide cluster response 
and suicide prevention. This also seems perhaps not 
proportionate to the problem, as revealed in the statistics. I 
want to make sure I am fair here, so I would like to hear from 
each of you concerning what the urgency is within your agency 
in responding to this crisis, and whether or not there is more 
Congress needs to do? I don't care what the Administration's 
budget calls for. What else does Congress need to do to get you 
the resources you need to make the response you would like to 
make?
    Dr. Grim.
    Mr. Grim. I think that any of our people that work on the 
ground in our hospitals and clinics realize the crisis level of 
the situation. There has been substantial progress in the last 
1\1/2\ years to 2 years of dealing within our programs and 
tribal programs on a community-wide basis. But also, some of 
the things we talked about in the testimonies are also looking 
at a long-term concerted effort and we are trying to coordinate 
multiple groups of agencies. The Indian Health Service and 
SAMSHA are working closely already, but our National Institutes 
of Mental Health and our counterparts in Canada are working 
with us also. So we are looking at a more long-term research 
based program.
    We are already beginning to put through the One Sky Center, 
through our Division of Behavioral Health and in concert with 
SAMSHA a lot of effort into suicide prevention in Indian 
country. We are trying to address goals that have been laid out 
in the national strategy for suicide prevention for our 
communities, and we have tried to make sure that each one of 
those issues are being addressed. So it is going to take a 
little bit of a long-term effort, because as I said, it is not 
really just a clinical problem with an individual. That is the 
end point of a whole host of multi-factorial issues that are 
not really just health related within the community. There are 
social and economic issues, educational issues and things like 
that. Getting all those groups to work together within one 
community sometimes is difficult. That is why we are looking at 
it, we realize there is a crisis, but we are looking at it as a 
long-term effort that we are going to have to systematically 
approach.
    Ms. Shamwell. Actually, the $42 million represents all of 
the activities that we have in Indian country and in tribal 
communities. Some of them are treatment, some of them are 
prevention, some of them are mental health focused, some of 
them are substance abuse focused.
    But really, we see all of them as part of the continuum. 
The $200,000 that you mentioned is just one activity that 
addresses suicide. We have several others that I talked about 
also that are brand new, that we actually have announced on the 
street right now, which we are very excited about.
    What we are hoping to do, though, pretty much along the 
lines that Dr. Middlebrook spoke about, we are trying to assess 
what is hampering so that we have a long-term plan, but we also 
have short-term response where we not only send people directly 
when there is a tragedy, but we also have these new funds that 
are available that we are very excited about and eager to get 
out into the communities.
    Mr. Pomeroy. Thank you both.
    Senator Dorgan. I want to thank both of you for testifying. 
I hope and expect that you are going to be able to stay for the 
remainder of the hearing. I want you to hear the remaining 
testimony.
    But I appreciate the fact that both of you have traveled 
some distance. I think Congressman Pomeroy's question is a 
question that we continue to ask: Does everyone understand the 
urgency.
    So thank you very much for being here, Dr. Middlebrook, Dr. 
Perez, Dr. Grim, and Ms. Shamwell.
    Let me say that when we began to put this hearing together, 
we contacted Gene LaFrambois, who is the Superintendent of the 
school in Fort Yates. He indicated that he really felt we 
should have some students testify. Tim Krehler, the vice 
principal at the Standing Rock School, helped us arrange that. 
I am going to invert the second and third panels. Let me just 
say to you, we have Dr. Doug McDonald, director of the Indians 
Into Psychology Program from the University of North Dakota 
with us; Dr. Paul Dauphinais, the school psychologist at Turtle 
Mountain Schools; and Cynthia Lindquest-Mala, the president of 
the Community College in Fort Totten. They are going to be our 
third panel. I am going to invert the panels and ask the second 
panel to come forward, which is Michelle Fast Horse, who is a 
senior at the Standing Rock Community Schools; Vaquita Hines, a 
junior at the Standing Rock Community Schools; and Elena Eagle 
Shield, a freshman at the Standing Rock Community Schools. They 
have all expressed an interest in testifying, and let me thank 
again the recommendation from Superintendent LaFrambois, and 
also Mr. Krehler. Thank you for making them available as well, 
and helping them attend.
    Also on this panel Doreen Yellow Bird. Doreen Yellow Bird 
is a journalist and a family member and a member of the Arikara 
Nation. Doreen has written on this subject in her professional 
life.
    Before I ask the panel to present, I would like to 
acknowledge some tribal leaders who are among us today. Charles 
Murphy, the chairman of the Standing Rock Tribe. Chairman Ken 
Davis, Turtle Mountain Band of Chippewa. Dontino White, 
chairman of the Spirit Lake Tribe. Thank you.
    Mike Peters, Secretary of the Sisseton-Wapeton Sioux Tribe. 
Mike is in the back over there. We have Cheryl Coulas, 
executive director of the North Dakota Indian Affairs 
Commission with us. And finally, we have Deborah Hall Thompson, 
who is here representing Chairman Hall of the Three Affiliated 
Tribes. Deborah, thank you very much for being here.
    I want to thank all of you for participating and thank you 
for your leadership with the respective tribes.
    Let me thank this panel for being here, thanks to the 
students especially. And let me begin by calling on Doreen 
Yellow Bird. Doreen, if you would begin and then we will hear 
from the students. Thank you very much for the work that you 
do, Doreen.

STATEMENT OF DOREEN YELLOW BIRD, JOURNALIST AND FAMILY MEMBER, 
                     MEMBER, ARIKARA NATION

    Ms. Yellow Bird. Thank you very much, Senator Dorgan and 
Congressman Pomeroy for being here. My name is Doreen Yellow 
Bird. I am Sahnish from the Three Affiliated Tribes and in 
White Shield. I am also a journalist and a writer with the 
Grand Forks Herald, and I am also the aunt of two nephews who 
have committed suicide and a niece who has made an attempt.
    A couple of months ago, I was at the Standing Rock 
Reservation doing interviews with students and people who were 
parents of or as students who were involved in suicide. It was 
an experience that just breaks your heart, to see the young 
people, our children, leaving us in this manner. I spoke to a 
woman who had lost her son, and I could see the sorrow on her 
face that again was heartbreaking, as she told me that she 
would never, ever get over the loss of her child, and that she 
would take this loss to her death. She said she would always 
remember that.
    I talked to some of the students who were affected and who 
felt what was going on. They were frightened by it. I talked to 
people on the reservation who said that they are also 
frightened, because there didn't seem to be a pattern, it was 
not a certain group of children, it was not young people, it 
was not teens who did poorly in school or who used drugs and 
alcohol. There was a whole list of children, there were more 
women, more young women than young men, which was a pattern 
years ago. So there was a fear among the people.
    So 2 or 3 weeks later, I was working at the Grand Forks 
Herald. About 3:30, we got a call from Red Lake and we were up 
to Red Lake within 1\1/2\ hours. I was there for the next 2 
days and involved in the killing and the suicide there. The 
awful sorrow and sadness and fright that you feel is almost, it 
was almost overwhelming to see some of the women wailing for 
their children. I could only take it so long and I had to come 
back to the Herald and I did my work from there.
    But more tragic to me was the loss just recently of my 
nephew. I talked with my aunt, who is one of the bundle keepers 
of the Sahnish, our people. This is her grandchild. The 
children's mother is her sister, and she passed away, so my 
aunt is now her mother and this is her grandchild. She was 
really stunned by the suicide, because this was the second one 
in that family. She told me to tell them that in our way, in 
the Sahnish way, that they should not have the wake and the 
giveaway kind of thing, that they should bury the child in a 
good way, but that they should not give praise to it, because 
she said that she is in her eighties and she has lived with 
diabetes for 49 years. She has had several heart attacks, she 
has ulcers, she has a whole gamut of diseases that go along 
with diabetes. And she now has arthritis, so she lives in pain 
and that kind of thing continuously. But she said that our 
Creator says that life is a precious gift, and she said we must 
make sure that our children understand that, that they know 
that life is a gift that you don't let it go so easily.
    She said that, Doreen, I don't think that these kids, these 
children, my grandchildren understand what dead is. That is our 
role, she said, as elders and as parents, to teach them. She 
said, we're not doing that, we need to go back and we need to 
help them. She cried.
    I know that she does not understand all of what is going 
on. My aunt does not know that methamphetamine is a powerful 
thing on the reservation. She does not know that some of her 
other grandchildren are involved with that. Their mother said 
that they were afraid that they were at risk, because they have 
real highs from meth, and then when they come off meth, they're 
suicidal. So they are concerned, meth is a huge problem in 
North Dakota and on reservations. As I talked to some of the 
people about suicide, they also mentioned that their children 
were involved with meth.
    Alcohol is also a depressant. So if you are using alcohol, 
you are also at risk, as the people from IHS also said.
    So I tried to explain some of these things to her, and she 
said that, Doreen, one of the things you need to do is when you 
get out and you talk to people, when you talk to elders, when 
you talk to spiritual leaders, she said, ask them to pray for 
our children. She said, they are our most precious thing. They 
carry the vessel of our ancestors in them. We need to continue 
on.
    So she said, tell them that. She said, tell them to take 
care of their children and ask they to pray, pray for their 
children, pray for our children.
    Thank you for allowing me to speak.
    Senator Dorgan. Doreen, thank you very much. I appreciate 
your being here.
    Michelle Fast Horse, Vaquita Hines, and Elena Eagle Shield, 
at your age I had great difficulty speaking to three people at 
once, let alone a crowded room. But I really appreciate your 
school recommending you and your willingness to share with us 
today. Let me ask you to begin, Michelle. You are a senior in 
high school. Why don't you provide us whatever thoughts you 
have? If you would pull that microphone close while you speak, 
we would appreciate it. And again, thank you very much for 
being with us, Michelle.

    STATEMENT OF MICHELLE FAST HORSE, SENIOR, STANDING ROCK 
                        COMMUNITY SCHOOL

    Ms. Fast Horse. Honorable Vice Chairman Dorgan and other 
members of the Committee on Indian Affairs, [greeting in native 
tongue]. My name is Michelle Fast Horse. I am a senior in the 
Standing Rock Community School. I will be graduating May 29.
    I live in Cannonball, ND, and I have for my entire life. I 
have been asked to testify to your committee regarding the 
suicides on the Standing Rock Reservation.
    I am humbled to represent the youth of Standing Rock. I do 
not speak for all youth, but I am only expressing my personal 
opinions. I believe suicide is a great mystery. There is no way 
suicide can be predicted. The only way to tell if someone is 
going to commit suicide is when they actually tell you that 
they are. Teenagers and young adults make up a majority of the 
Nation's suicides. I think because we teens are very confused 
about life and have a lot of stress on pressure on us, we 
become depressed. Some teenagers have absolutely no trust in 
anyone, due to the fact that no one is there for them to talk 
to. That is probably why they don't talk to counselors and get 
help.
    Something that can be hard in a teen's life are boyfriends 
or girlfriends that break up with them, because sometimes 
that's practically their only friend or the only person they 
trust. Many teens go through physical or emotional abuse at 
home and they often don't know how to cope with all those bad 
feelings, so they possibly turn to suicide. Sometimes teens 
tend to suicide because of drugs and alcohol or while they are 
under the influence of drugs and alcohol.
    I personally lost a friend to suicide while she was under 
the influence and she had, after she had died, we found out 
that she was being abused. Two of my other friends came to me 
while they were under the influence of alcohol and they wanted 
me to help them, because they did not want to live any more, 
they wanted to commit suicide. They believed that nobody loved 
them.
    Depression among teenagers can be a cause for many things 
that happen, from early childhood, being either neglected or 
abused, because of living in poverty or having parents that 
abuse drugs or alcohol.
    There are many ways that adults can help teens. Creating 
more community awareness on suicide I think is really needed, 
especially in my community. Teenagers need places where they 
can hang out, such as arcades and gyms and skate parks, because 
where I live there really is nothing. Some teens should be able 
to have like a safe house, in case something, if something is 
going on at home and they want to go somewhere and they have 
nowhere to go, they can go to a safe house, if there was one.
    Teenagers become depressed because they, some of them do 
not know what to do after high school. There are people that 
can help in our schools. They can help them apply for college 
and help them with their financial aid. That would really work. 
That would help them so they can become more educated and get 
greater jobs and prevent the poverty in our communities.
    In closing, I believe suicide is very controversial, and I 
believe there are many ways to prevent it, starting with people 
that are just willing to volunteer and listen. Thank you.
    Senator Dorgan. Michelle, thank you very much. We 
appreciate your being here and sharing with us.
    Next, Vaquita Hines is a junior at the Standing Rock 
School. Vaquita?

  STATEMENT OF VAQUITA HINES, JUNIOR, STANDING ROCK COMMUNITY 
                             SCHOOL

    Ms. Hines. Honorable Chairman McCain, Honorable Vice 
Chairman Dorgan and Honorable Senators of the Committee on 
Indian Affairs, hello, my name is Vaquita Hines. I am a junior 
at the Standing Rock Community School. I live in rural Fort 
Yates.
    I recently returned to live in the Fort Yates community and 
this is my second year of attending Standing Rock High School.
    I am also humbled to represent the youth of Standing Rock. 
As Michelle said, I am only here to express my opinions and how 
I feel. I cannot speak for the rest of the youth on Standing 
Rock.
    When someone commits suicide, the questions that first come 
to mind are why, what, how. There are many questions and they 
all can't be answered. No one knows the real reason why someone 
chooses to commit suicide. It could be stress, financial 
problems, sexual or physical abuse, emotional abuse, school, 
peers. A big factor is drugs and alcohol. There are several 
factors that lead to suicide, and I could go on and on with a 
list of things.
    I really don't understand why anyone would want to take 
their life. Yes, there are going to be times in your life that 
are going to be bad, and you are going to have your troubles. 
But you will get over them. I guarantee you things will become 
better. Everyone goes through it all at one time in their life.
    I think the reason for some of the suicides on the Standing 
Rock Reservation is because there is nothing for the kids to 
do. There isn't very much school programs and activities to 
keep the kids occupied and out of trouble. Also, it is not very 
difficult or hard to get alcohol in the hands of a teen, so 
there is an extremely high rate for underage drinking.
    Sometimes teens live in a rough household with no one to 
talk to or turn to, no mother, no father, no parental figure. 
They might even feel alone, as if no one loves or cares for 
them. The majority of Standing Rock's population is kids and 
teenagers, so there needs to be something for them to do.
    There has been a lot of talk about having dorms. Of course, 
there are benefits and downfalls of having dorms. For one, 
there could be more kids attending school. Many kids leave 
Standing Rock to go to other boarding schools around the 
country. By having dorms, some would stay and other kids from 
different places could come and stay in them, too.
    There could probably be a decrease in tardies and absences 
in school because the students would be close by. Dorms would 
make the students feel safer and free from alcohol and drugs. 
There would also be qualified people around for them to talk to 
and kids for them to learn from and relate with. Some downfalls 
are, they wouldn't be with their immediate family members and 
they wouldn't have a parental figure to teach them their family 
history and family values. There could be more after school 
programs. We do have some at Standing Rock, but there could be 
more school dances, movie nights, game nights, plays, talkers, 
and even small clubs such as a girls' group, guys' group, chess 
clubs. There are many ideas that come to mind.
    Another idea is having a local teen crisis hot line that 
would be readily available by answering questions and listening 
to what you have to tell them.
    Basically what I am trying to say is Standing Rock needs to 
get the youth involved. In some situations, the parents should 
be held responsible for some children's actions. For example, 
the parents should be involved as much as possible in the kid's 
life. They should know what they're doing, when they are doing 
it and who they are going to do what with. I myself grew up in 
many different places, I am an Army brat. I have been 
everywhere. And I wasn't exposed to suicide until I moved to 
Standing Rock Reservation. I never even thought about it, heard 
about anybody doing it, I never even witnessed it.
    Those are some of the things I feel could be done about the 
situation, the action that needs to be taken. Don't just say 
you want to do something and never get it done. Don't give a 
bunch of, like suggestions, and never do it.
    Those are some of the things that could be done about this 
situation. I would like to leave you with two notes. Why not 
love and live life and make it better and make it happen? Thank 
you for listening. Michelle and I will be more than happy to 
try and answer any of the questions you may have.
    Senator Dorgan. Thank you very much, Vaquita.
    Next is Elena Eagle Shield. Elena is a freshman at the 
Standing Rock Community School. Elena, why don't you proceed?

   STATEMENT OF ELENA EAGLE SHIELD, FRESHMAN, STANDING ROCK 
                        COMMUNITY SCHOOL

    Ms. Eagle Shield. Good morning. My name is Elena Eagle 
Shield, and I would like to thank you, Senator Dorgan and 
honored guests, for offering me this opportunity to voice my 
opinion.
    Children need a system of well-rounded support. Children 
cry for help and need attention. Family and friends from far 
away, other places, forgo events such as weddings, graduations, 
birthdays, anniversaries, et cetera, but come running when 
there is a death. I don't think it should have to be like that. 
We shouldn't have to gather for grief or hard times. We should 
gather for celebrations and happiness.
    Family plays a big role in children's outlook on life. We 
need someone to love us, to care enough to push us toward our 
goals and say we can get a Ph.D or be a Senator or be the 
President of the United States. We need support for the big 
things.
    We need to rekindle cultural values, also, such as prayer, 
honesty, respect, generosity, wisdom and courage, which in 
return improves and strengthens family dynamics. Even simple 
things such as having supper together, watching movies, doing 
homework, just letting children know that they are special and 
they are loved.
    I am confident that if parents were there and involved, 
teens would have that well-rounded support and not have to look 
for an activity in alcohol and drugs, which plays a major part 
in suicide and fatalities and attempts. Therefore, we need 
extracurricular activities such as dance classes, cultural 
activities, karate lessons, gymnastics, other things like 
swimming pools, arcades and skate parks. We are so isolated, we 
just need diversional activities, things to look forward to, 
like trips to different places. We need to know that there is a 
big world out there, and there is a wide variety of our outlook 
on life.
    Incentives for certain deeds, regardless of grade point 
averages or attendance. Because some kids do not have someone 
to push them toward getting good grades or wake them up in the 
morning to get them to school on time. Most of the time, the 
ones who need these things, these incentives and trips the 
most, can't do it.
    We need more conferences, youth gatherings, not just one 
annual a year. We need to get the chance to speak amongst each 
other and listen as well.
    Teens are already intervening with friends around a lot of 
issues as well as suicide, drugs and alcohol, sex, without 
adult knowledge and support. We need to be able to talk to who 
we feel comfortable with, regardless of whether they are a 
certified counselor or it's their job. If not, we need to get 
more certified counselors.
    We are learning more and getting involved, because we do 
understand that these issues are not only facing us now, but 
all over the world, facing all kinds of teens and races.
    When there are problems with drugs and alcohol or an 
attempt or a gesture of suicide, we need help right now, not 
put it off until next week or even the next day. It needs to be 
dealt with right away, not put off because there is a waiting 
list or no money. One thing is we need more treatment centers. 
We have one treatment center in our area, which holds a bed for 
one of our youth, the Aberdeen Area Regional Youth Treatment 
Center. Don't worry about what happened or what could have 
happened, worry about what could happen now, what we all could 
do to help, by working together.
    We need more law enforcement officers who can come by and 
are truly interested in what is going on on the reservation and 
about the youths' future. We also need to be our own support 
system. We can start off with positive friends, positive 
activities, caring adults who really listen and want to have a 
say and listen to what we have to say also. And again, values 
and beliefs.
    You say there is a shrine of suicide commiters and 
attempters. Don't you think that blanket is a sign that look, 
here are all these suiciders and look at all the empty spaces 
that need to be filled in? Why not a survivor's blanket for the 
ones who are helping and want to help others get through things 
like this?
    I would like to say thank you for listening to us, to us 
youth. I know you want to hear what we have to say, but most 
adults won't listen, because that's all we are is youth, we 
don't have a Ph.D or other credentials behind our name. I 
believe you have already decided what you want to hear.
    In closing, another thought that came to me was if you are 
really concerned about the issues going on, on behalf of the 
youth I extend an invitation to come to the Standing Rock 
Reservation and personally meet with and hear testimony with 
other youth, heart to heart, without any publicity.
    I would be pleased to answer any questions to the best of 
my ability. Thank you very much.
    Senator Dorgan. Thank you very much.
    The three of you are very inspiring, and we appreciate your 
being here. Who are the folks who are standing? Parents? All 
right. Thank you very much for being here as well.
    Let me ask, and I will certainly accept your invitation, 
Elena, to come back to Standing Rock as well and have some 
meetings with the youth at Standing Rock. I have met with 
classmates of those who have committed suicide. One of the 
things that some have said is sometimes there is an early 
warning, sometimes there are signals, sometimes it's clear who 
is having trouble. Then other times it is not clear at all, it 
is just a complete surprise, just out of the blue. And you 
think, well, this is not someone who I ever would have thought 
would have attempted suicide.
    Some say it goes to alcohol and drugs, among other things. 
There is a wide range of causes, as Dr. Grim suggested. But I 
think all of you mentioned alcohol. In a school system, at 
least the site you are familiar with, is it pretty obvious to 
students where you can obtain alcohol or where you can obtain 
drugs or from whom you can obtain alcohol and drugs?
    Ms. Eagle Shield. Yes; I think it's really easy. Anybody 
can just walk up to, even a cousin or auntie or uncle, who just 
wants money, they'll help you get it, whenever you need it.
    Ms. Hines. There's also people that hang out outside the 
bars, and like young, 21 years old. A lot of people hang out 
with older people and it is very easy. All you have to do is 
ask, and I guess you'll receive.
    Senator Dorgan. What kinds of resources exist at school for 
somebody who is troubled, let's say someone who is having a lot 
of difficulties in a lot of different areas and needs to reach 
out and talk to somebody? What kind of counseling service is 
available at your school?
    Ms. Hines. I think there are a lot of counselors, but a big 
problem is that we had an issue in our school where someone 
talked to a counselor and it wasn't confidential. Their 
information wasn't just with the counselor, and that kind of 
made a big old thing, people just don't feel safe by telling 
their business and just letting their guts out to someone that 
they don't trust.
    But there are a lot of counselors that we can talk to, and 
a lot of our teachers. There are a lot of supporters, but there 
just needs to be more.
    Senator Dorgan. You heard Doreen Yellow Bird talk about 
methamphetamine. As students, do you hear about 
methamphetamine, hear people addicted to methamphetamine in the 
community? Is that a subject you're acquainted with at all? I 
don't mean personally.
    Ms. Hines. I don't hear a lot around the school. I don't 
really think there is a lot of students that use it around the 
school. But of course, they are not going to say they use it. 
But I don't really hear a lot about methamphetamine users. I'm 
sure there are some.
    Senator Dorgan. Doreen, let me ask, you were up at Red Lake 
and you have two nephews, you said, that took their own lives.
    Ms. Yellow Bird. Yes.
    Senator Dorgan. Were both of the nephews involved with 
methamphetamine?
    Ms. Yellow Bird. No; not the one, the latest one actually 
was a big surprise. Most of the people, all the relatives were 
astounded that he committed suicide. There didn't seem to be 
any reason. He was doing well, and he just didn't seem to be a 
candidate for a suicide. It was a big surprise.
    And the other one was back in 1993. I am not sure if 
alcohol was involved.
    Senator Dorgan. Congressman Pomeroy.
    Mr. Pomeroy. I want to thank this panel. I have heard a lot 
of panels at a lot of hearings, but I don't recall any being 
more riveting than the words you brought us this morning. You 
were so articulate, so insightful, really very, very good.
    Doreen, you said something that is going to stick with me 
for a long time. You were quoting your friend when she said, 
``I don't think our children understand what dead is.'' Would 
you elaborate on what your friend was trying to communicate? I 
have wondered about this relative to teen suicide, both on and 
off the reservations.
    Ms. Yellow Bird. It was my aunt, and she is the grandmother 
of the children who committed suicide. She was basing that on 
her many years of experience and her experience with her many, 
many grandchildren who are teens. It is a cultural thing, also, 
that when you are this age, you go through a point where you 
think you are immune from death. You are not, you don't really 
understand that death is forever and there is no turning 
around, that once you're gone, you're gone. There is also a 
cultural aspect of taking your own life that's also Lakota-
Dakota and that's also Sahnish, that I don't know whether the 
young people know those things either.
    Mr. Pomeroy. I don't know if the students would have a 
comment on this one or not. Do you think it is fully 
appreciated by those who consider suicide how completely 
irreversible, how forever a successful suicide is?
    Ms. Eagle Shield. Yes; I recently had a cousin who 
committed suicide. Me and my family were talking and we don't 
think that any temporary situation is such a, for a permanent 
cause--I don't know how to put it.
    Ms. Fast Horse. When there was a suicide, maybe before the 
last one, there was like a big commotion going on in the whole 
school where everybody was like, bring in these speakers, bring 
in these speakers, talk about suicide and all that. They wanted 
to do so many things, they had all these ideas and I haven't 
seen anything happen so far. It was like, maybe March or so. 
And everybody was, why don't people do anything if they feel so 
strongly about it? It just dies out, all the activities they 
have in mind just dies out.
    Ms. Hines. I'd like to add something, it's just something 
that was really interesting that my tribal government class was 
talking about. When someone commits suicide, it's like they 
have, it's kind of like it's a big old, how can I explain this? 
When someone commits suicide, they celebrate it differently, 
they have memorials and tournaments and all that stuff for 
them. That's all good and stuff, but I'm just saying, who 
wouldn't want to have all that when you pass away?
    It's just that it shouldn't be celebrated so much when 
someone commits suicide, like that was the thing, we all in our 
school had to sign a big card when one of our peers had passed 
away and I heard someone say, oh, I wish someone, they all do 
this when I pass away, I heard a sophomore say that. I was 
like, whoa, that's not the message that we are trying to send. 
When someone passes away, everyone comes, a lot of people 
celebrate it and stuff like that. It shouldn't be celebrated. A 
lot of people look at it different like that. It shouldn't be 
celebrated, I don't think.
    Mr. Pomeroy. Thank you. Very interesting answers.
    Senator Dorgan. You raised the question that I think Ms. 
Eagle Shield raised a bit, about is it appropriate to talk 
about this publicly even. Part of my passion is, I lost a 
wonderful daughter, to heart surgery, not to suicide. But I 
know the tragedy of losing a child. That tragedy is simply 
magnified by suicide for those parents and those families who 
have experienced that. It is happening far too often. It is 
just such an enormous tragedy.
    Elena, at the end of your testimony you raised the question 
that I have thought a lot about. I held a meeting at the United 
Tribes Technical Center with about 40 or 50 people, a non-
public meeting, we didn't exclude anybody, we just didn't 
invite anybody except those that we wanted there to talk about 
this. The question is always, for those of us on this 
committee, for example, not just on suicide but other issues as 
well, what is the appropriateness of having a hearing that will 
obviously generate attention? Is that positive or is it 
negative?
    The alterative to that is to simply allow what is happening 
to continue and say nothing, because we are worried that saying 
something will generate publicity. The fact is, I think the 
only way we are going to address this issue of teen suicide is 
to look it square in the eyes and say, here's what's happening, 
it is a tragedy of enormous proportions and we must address it 
honestly. And yes, that is hard to do. And yes, it will cause 
some people some pain, just to address it.
    But we really don't have any choice. When young people 
whose souls are tormented sufficiently that they believe they 
have to take their life, there is something dreadfully wrong. 
We must try in every way possible, as parents, as citizens, as 
loved ones of those who are taking their lives, we must find a 
way to address it.
    So I think your testimony is really very helpful to us. I 
appreciate very much, Mr. Krehler, thank you for bringing your 
students. It was very important, when Sara Garland was helping 
put this hearing together, I said, I don't want to push 
students into testifying at a hearing like this. But my 
understanding was that you wanted to come and talk about this 
issue. I think it is helpful to have you here.
    So we thank the three of you, and Doreen, thank you for 
what you write and what you think and what you share with us on 
these and many issues. Thank you for being with us today. We 
appreciate it very much.
    The next panel that we will hear from is Dr. Doug McDonald, 
who is the director of Indians Into Psychology at the 
University of North Dakota; Dr. Paul Dauphinais, a School 
Psychologist at the Turtle Mountain Schools; and Cynthia 
Lindquest-Mala, the president at the Community College at Fort 
Totten. If you would please come forward, we would very much 
appreciate your testimony as well.
    Mr. Pomeroy. Senator Dorgan, as we had previously 
discussed, I do have a prior commitment, a speaking engagement. 
So I have to leave before the third panel can present. Because 
I know the third panel, I want to express my appreciation for 
them bringing their experience forward, and adding their 
comments into the record.
    Again, I want to thank you, Senator, for allowing me to 
participate. I appreciate very much your being here.
    Senator Dorgan. Congressman Pomeroy has been a very strong 
voice in the U.S. House of Representatives on many, many 
issues, including issues affecting Native Americans. We 
appreciate your interest and willingness to be here. Thank you 
very much.
    [Applause.]
    Senator Dorgan. Let us start with Doug McDonald. Doug is 
the director of the Indians Into Psychology program at the 
University of North Dakota.
    Dr. McDonald.

  STATEMENT OF JUSTIN [DOUG] McDONALD, DIRECTOR, INDIANS INTO 
         PSYCHOLOGY PROGRAM, UNIVERSITY OF NORTH DAKOTA

    Mr. McDonald. Thank you, Senator Dorgan and Representative 
Pomeroy, distinguished tribal leaders with us here today. I 
want to send an apology out to my elders, I am uncomfortable 
with my back to you. So I ask for your forgiveness.
    I am honored to be among this panel today, yet deeply 
regret its necessity. My name is Doug McDonald, I am a 
professor of psychology at the University of North Dakota and 
director of our Indians Into Psychology program, which is 
funded by the Indian Health Service. I would like to extend a 
very heart-felt and public acknowledgment and thank you to you, 
Senator Dorgan, for your unswerving support of the program over 
the years.
    I am a member of the Oglala Lakota Nation of Pine Ridge, 
SD, and grew up on my family's quarter horse ranch on the 
Northern Cheyenne Reservation of southeastern Montana. I am a 
licensed psychologist and have supervised over 100 Indian 
graduate and undergraduate psychology students. Our program and 
department has produced over 30 post-graduate graduations for 
our Native students.
    I currently supervise three practicum sites in which our 
doctoral clinical students work exclusively with troubled 
American Indian youth on our surrounding reservations. I myself 
have consulted in Indian Health Service clinics, group homes 
and reservation school systems since 1992. I also recently led 
a team of graduate students in responding to the crisis at Red 
Lake.
    With all of that said, I only wish that all of these 
efforts were enough to do more than dent the surface of the 
huge and complex problem that brings us here today. Today, a 
male American Indian adolescent in North Dakota is just as 
likely to die by his own hand than any other means by the time 
he turns 25. Although youth suicide prevalence rates across our 
region vary, they still run from two to five times higher than 
for their non-Indian counterparts.
    Although these numbers are alarming, yet they represent 
only the tip of a more frightening iceberg, in my opinion. Our 
reservation youth are being seen and in many cases hospitalized 
for suicidal behavior, which may range from ideations or 
threats to an actual attempt at a rate that far exceeds those 
for any age cohort of any cultural and racial group. In my 
unique position, I have been able to observe this scenario on 
seven of our regional reservations over the past two decades.
    While I am typically a very optimistic person, which 
hopefully a psychologist should be, I must say that I see this 
tide rising with tsunami force, with precious little defenses 
to stem its might. I do not fear what we know. We know Indian 
youth suicide in our region is a serious problem. I fear what 
we do not know. I, along with my colleagues, have spent the 
greater portion of my professional life trying to help folks 
realize that American Indians are the least represented 
American ethnic minority group for which appropriate and 
reliable mental health research exists, as has been discussed 
somewhat today.
    I have spent the remainder of it trying to contribute to 
that still inadequate body of literature. We do not know why 
the problem is so large. We don't even really know how large it 
is. We may speculate as to the relative contributions of 
poverty, substance abuse, child abuse and neglect, inter-
generational trauma, boarding schools, insufficient health care 
and education, and certainly these variables are all factors. 
But we can only guess as to the relative size of their impact 
and the degree to which they interact with such obviously 
brutal synergy.
    For some reason, or constellation of reasons, our Native 
youth have come to a place, as we just heard, where the most 
basic human social skill and interaction, talking about their 
problems, is not seen as either productive or viable. It is my 
opinion that this phenomenon forms the Rosetta Stone by which 
all these other relevant variables may be better understood.
    So in simple terms, what needs to be done? I believe the 
answers, just as the questions, must be complex and powerful. 
In essence, three components are key. First, clearly, we need 
more answers. And answers may only be achieved through 
methodologically sound, yet culturally appropriate and 
competent research and professional training.
    Research requires resources. These resources include time, 
money, expertise and logistics. Any effort that Federal, State, 
tribal, or even private entities can produce can be considered 
in order to increase the knowledge base regarding Indian youth 
suicide.
    The second component is treatment, as again we have heard 
several times. And this treatment must take many forms and be 
holistic and as creative as it is consistent. For example, 
local tribal and community customs must be recognized and 
followed if there is any hope that they will be embraced and 
effective. Elders and old ways must be respected to the same 
degree as evidence-based protocol.
    Finally, tribes and communities themselves must embolden 
themselves toward taking monumental leaps of faith and not only 
allowing but participating in data gathering and healing. Too 
often, tribes have been exploited by outside researchers 
swooping in and out of town, never to be seen or heard from 
again.
    Reopening those doors will not be easy. Yet it may become 
necessary in order to gain a greater understanding of this 
monstrous problem that is causing our children to believe that 
a gun or handful of pills is a more worthwhile option than 
asking someone to talk.
    Thank you.
    Senator Dorgan. Dr. McDonald, thank you.
    Relative to your comment about respecting the culture and 
so on, we did, as would be a custom, invite a Hidatsa elder and 
spiritual leader, Sadie Mann, to testify this morning. She was 
intending to do that, but called this morning and said she was 
not able to be here. I just wanted everyone here to know that 
we had made that invitation, so she was on the list of those 
who would testify.
    Dr. Paul Dauphinais is the school psychologist at Turtle 
Mountain Schools. Dr. Dauphinais, thank you very much for being 
here.

   STATEMENT OF PAUL DAUPHINAIS, SCHOOL PSYCHOLOGIST, TURTLE 
                        MOUNTAIN SCHOOLS

    Mr. Dauphinais. Thank you for having me.
    I want to express my sorrow, first of all, for all the 
children who have died tragically and in hopelessness. The pain 
and loss of a loved one is very real and very great, as we have 
heard. That pain is unimaginable.
    My heart goes out to all those who have lost loved ones so 
tragically and to the communities who struggle with trying to 
find answers of why children, especially children, are taken 
from us. I want to thank you, Senator Dorgan, for affording me 
the opportunity to let Congress know, to let the public know 
about the severity of the problem and to provide the impetus to 
do something to prevent these tragedies.
    When invited by my tribal chairman, Mr. Davis, I accepted 
the responsibility, because I feel I live on the borrowed time 
of my grandchildren, time that I cannot waste, the time that 
has been given to me as a gift and I have a responsibility to 
respect the gift or the gift could be taken back. My 
grandparents, in the same way, accepted my gift and provided me 
the opportunities that I have had and hopefully will continue 
to experience. These experiences do not always bring the things 
that I would want, but all the experiences have given me new 
and important information and I would like to think that they 
have made me wiser.
    I have experienced calls in the night telling me that one 
of my children has attempted suicide. I have experienced 
depression, I have seen my children in depression and states of 
hopelessness. I am thankful my child did not, was not 
successful in committing suicide and continues to live, 
although continues to battle the demons of mental illness.
    I am raising one of my grandsons, and I enjoy him very 
much. But I know the love he has for his mother and she for 
him.
    My story unfortunately is not unlike that of many parents 
and grandparents living in our Native American communities. 
Like many others, the story is not totally one of endless 
tragedies. We are blessed with children who have weathered 
their life with less depression and hopelessness and have come 
to use their borrowed time well. One has recently birthed a 
child, and another is awaiting fatherhood this month. These are 
very joyous occasions.
    I was born on Turtle Mountain Chippewa Reservation, grew up 
in the Yankton Sioux Reservation and have worked on other 
reservation communities and now work on the Turtle Mountain 
Reservation as a school psychologist. I worked as a school 
counselor, human service administrator and I am a licensed 
psychologist in North Dakota. I am also pathologically 
optimistic.
    I am hopeful we can make our grandchildren's time one that 
will facilitate their potential and that one will give them the 
support and strength to have hope. I know that if we really ask 
our children about themselves and their experiences, they will 
respond. The science of psychology tell us that we can and 
should ask children if they need help and they will respond to 
us. I think the children that were in the panel before us 
expressed that very clearly.
    My first wish is that we need to ask our children about 
themselves. As a community, we need to support the positive 
development of all our children. This includes supporting 
parents' efforts at providing nurturance and safety to their 
children and supporting teachers to provide the best 
educational experience possible.
    Between 7 and 10 million teenagers suffer from mental 
health conditions; 90 percent of teens who die by suicide 
suffer from a diagnosable mental illness at their time of 
death. In fact, in 63 percent of completed suicides, 
psychiatric symptoms developed more than 1 year prior to death. 
It is ironic that by the time they reach adolescence, most 
young people have been immunized against a wide array of 
threats to their health and well-being, including measles and 
mumps, hearing, speech, and vision impairments, but few are 
screened for depression.
    If we screen, we will have children that we must attend to. 
At the same time, can we ignore asking our children about 
themselves because we don't want to hear what they have to say? 
We are also blessed with highly skilled professionals who are 
native to our community in the Turtle Mountain. We have young 
professionals that have been part of Dr. McDonald's INPSYDE, 
psychologist training program, who now want to remain in their 
community. We have MSW social workers and masters level 
counselors, school psychologists and a psychiatrist even who 
want to remain in their community to contribute to a better 
future, to respect their borrowed time and gift.
    We have begun to use the Teen Screen program researched and 
designed at Columbia University by Dr. Shaffer. Teen Screen is 
a screening program that uses scientifically designed tools to 
help identify youth who are suffering from undiagnosed mental 
illness and who are at risk for suicide.
    In our Turtle Mountain Schools, we have identified over 
one-half of our older children who have used alcohol or drugs 
and who have used meth; over one-half who could be considered 
clinically depressed; and one-fourth could meet the criteria 
for PTSD. PTSD is a very destroying mental illness that just 
piles on and on and on every time a person is traumatized. Dr. 
Manson from the Mental Health Research Center in Colorado 
recently published an article including American Indians living 
in adverse environments that placed them at high risk for 
exposure to trauma and harmful health sequelae.
    We have screened those middle school students whose parents 
gave us permission and who themselves volunteer to take the 
screening. The percentage of children with possible mental 
health disorders was higher than the average of the other Teen 
Screen sites throughout the United States. We also found that 
when we screened our 1st grade through 5th grade children, 500 
or so children, using the dominic computer interactive program, 
there was an extraordinary number of children at risk there, 
too.
    We have learned from this that we need the collaboration of 
Indian Health Service mental health teams in our particular 
community. They have been very, very supportive in that way.
    Another wish I have is to provide support and a place for 
new Native professionals. Many want to stay at home, the ones 
that I have had experience with, that I supervise in their 
practicum in our school system are very well trained and 
express the willingness to stay home. We need to find a place 
for them.
    We need to support efforts to allow mental health in 
schools. We can do this through third party reimbursement for 
services within schools, and through relaxing of policies that 
prohibit such practice by IHS and BIA. We need to support 
training programs that expand the mentorships of Native 
psychologists and training, paired with the best in the field 
of helping those who have been traumatized, the best in the 
field of helping children with depression and other mental 
health disorders.
    The schools have children for 8 hours a day. We have found 
through our efforts in Turtle Mountain that having 
psychologists and social workers and psychiatrists, as well as 
the established school counselors, nurses, and social workers 
in the school, it makes a big difference in terms of grade 
improvement and lessening office referrals and providing 
prevention programs and life skill development for our 
children. We have found that by providing skills to children to 
learn to cope with angry, fearful, worrisome feelings they 
respond well in using these skills appropriately.
    We have available to us Dr. LaFromboise's ``American Indian 
Life Skills Development Curriculum.'' She is a member of our 
community and a tenured professor at Stanford University. So 
there are programs that exist for Native children. We need to 
find them, they need to be allowed they need support. These 
kinds of programs need the Government stamp of approval, so we 
need to have more research in those areas. Some of them are 
very, very good.
    We need to support those prevention programs designed and 
researched for Native children. We need to support efforts in 
Native communities with teams of professionals that can respond 
to tragedies. We need to support efforts for Native communities 
to have national teams of Native professionals who can provide 
the expertise in prevention efforts.
    Again, I want to thank you, Senator Dorgan. My wish list I 
suppose has grown with the years I have worked in my Indian 
communities. But I am hopeful and I know there's a pony in 
there somewhere. [Laughter.]
    I want to thank you personally for the many times you have 
responded to my family, also. I know you are quite informed 
about the issues that plague the youth in our Native 
communities and issues that create despondency and 
hopelessness. I am hopeful you will continue to support our 
efforts in our Indian communities. I want to thank you again.
    Senator Dorgan. Dr. Dauphinais, thank you, and thanks for 
what you do as well. We appreciate very much your being here.
    The final witness will be Cynthia Lindquest-Mala. She is 
the president of the Community College at Fort Totten, but 
previously executive director of the North Dakota Indian 
Affairs Commission, director of the Indian Health program at 
the University of North Dakota Medical School. Ms. Lindquest, 
thank you very much.
    It says you are a Ph.D candidate. Have you received your 
Ph.D? Okay. If you will turn that microphone on, thank you. 
Please proceed.

   STATEMENT OF CYNTHIA LINDQUIST-MALA, PRESIDENT, CANKDESKA-
             CIKANA COMMUNITY COLLEGE, FORT TOTTEN

    Ms. Lindquist-Mala. Thank you, Senator, and thank you very 
much to the U.S. Senate Committee on Indian Affairs, Ms. 
Bumpus, Ms. Garland, and Senator Dorgan.
    I do appreciate the opportunity to be here. I do not have 
prepared testimony and I will begin by saying [greeting in 
native tongue]. My friends, I am called Star Horse Woman, and I 
come from the Spirit Lake Nation. My professional role is 
president of Cankdeska-Cikana Community College, Spirit Lake 
Lakota, Fort Totten, ND.
    I need to share with you, in sharing with you my Indian 
name, that I have a responsibility. I have come to understand 
in carrying my Indian name, my Dakota name, is to speak from my 
heart. I speak the truth as I understand it, as I have come to 
learn. I need to share with you that I have come up through the 
ranks professionally as my tribe's health director/planner in 
the early 1980's, a position I held for about 7 years. I have 
worked for the Indian Health Service at the regional and 
national level. I am an adjunct assistant professor of 
community health and rural health for the University of North 
Dakota School of Medicine and Health Sciences.
    Why I share that with you, and I am going to come back to 
my personal story, because I did grow up on the reservation, 
the Mission District, St. Michael, ND. When my parents went 
through a bitter divorce, I was a teenager. I went through what 
professional people called culture shock. I did not understand 
it at the time. But one of my reactions and responses to going 
through culture shock and not understanding my identity in 
being Dakota and Scandinavian, was that I took to alcohol and 
subsequently attempted suicide myself two or three times as a 
child.
    In my healing and learning journey, and especially my years 
as the tribe's health director/planner, the permeation of 
alcohol and substance abuse on the reservation was just 
unbelievable. So I made a conscious decision at that point in 
my life to set that aside. I couldn't be a hypocrite and be my 
tribe's health director/planner and have that lifestyle.
    But alcohol and substance abuse affected everything in our 
lives and still does. I have been back home as the tribal 
college president for about 18 months. I have been truly 
blessed in my healing and learning journey and coming to terms 
with my identity and identifying as Dakota. But coming home 
after having national experience and getting to see Indian 
country from a national perspective, it is disheartening 
because of what is happening to our children.
    I had a friend visit with me one time from England. We went 
to a couple of different reservations here in the Dakotas. 
After the end of the visit, we were just talking about the 
visit and getting her impressions. Her impressions were, she 
loved to be around the children, but at the same time, she was 
saddened, because our children did not have that spark of life 
in their eyes. There was almost a sense of despair in young, 
young kids. And I had never looked at it that way, especially 
having come off of being a tribal health director/planner and 
being so enmeshed in dealing with health and health issues. At 
that point in time, Spirit Lake Nation was dealing with four to 
five suicide attempts a week. We had one bachelor's level 
social worker.
    The program was a tribal health program. We retroceded it 
back to the Indian Health Service, and it is still with the 
Indian Health Service. We had contract psychologists and 
psychiatrists coming into the reservation. It is still that 
way. It hasn't changed, in all the years. That's what hurts, 
that's what breaks my heart.
    I love being home, I love being a tribal college president. 
Because I am seeing optimism and hope in the student body at my 
college and the changes there.
    What I need to share with you all is that this is a very 
complex and serious issue, as you so eloquently stated in your 
opening, Senator Dorgan. It is rooted in history. We can never 
forget that. It reflects broken treaties, broken promises. It 
is linked to what they call post-traumatic stress, that is so, 
for me, obvious now in Indian Country. It is linked to how and 
why we live the way we live. There are many policies passed 
with good intentions, but that did not work, that tried to 
change how we live. The essence of those policies was the 
dismantling of our families and the breakup of the structure of 
how our families lived and the way we lived.
    To me, this suicide epidemic happening in Indian country is 
just a manifestation of all its history and reflects our 
community's historical oppression, the assimilationist policies 
meant to deal with Native people. Our people are wounded. Our 
people have wounded souls and wounded spirits.
    The data from the deaths reflect communities and families 
in crisis. The healing has to begin by understanding, and 
understanding means different things to different people. We 
must understand and perpetuate a public understanding of Indian 
people in this country and its history. The dynamics of what is 
going on right now does in fact reflect this history. We need 
to create learning environments so non-Indian people understand 
better that history and the trauma that we are dealing with. We 
must create learning environments so our people have a better 
understanding also of this trauma and what we need to do to 
deal with it.
    As these young people so eloquently stated, this issue of 
trust, this personal thing with trust, while most teenagers, it 
doesn't matter what culture or community you come from, most 
teenagers have this issue of trust. But for Native people and 
Native youth, it is especially compounded, because you have 
this historical trauma. We are fearful and we are mistrustful 
because of these broken promises, these broken histories.
    At the same time, you look around, you look at the healing 
that is occurring, the wonderful resilience, survivability of 
the indigenous people of this country, our compassion, our 
ability to forgive, our ability to continue to give and to give 
back. That is the essence of what is helping our people survive 
and looking forward until tomorrow, for all tomorrows, for the 
future.
    So what can the U.S. Senate Committee on Indian Affairs do 
to address teen suicide in Indian country? Do what you are 
doing, Senator Dorgan. Have public forums, official and 
unofficial. We need to talk about it. We need to have 
mechanisms to do that in whatever way, whatever level, at 
different levels of Government, public, private, homes, 
churches, pow-wows, wherever. Gather that information and data, 
share it, disseminate it. Demand that the Federal Government, 
that Congress appropriate adequate resources for our health, 
our education of our people.
    Off the top of my head, the Indian Health Service is funded 
at about 60, 65 percent of need. That gap is growing. It is not 
getting smaller. It is not diminishing. When I used to know 
these numbers, the mental health services and programs of the 
Indian Health Service were only funded at 20 to 25 percent of 
need. I don't think that's changed since I used to do Indian 
Health work. I think those numbers are probably comparable 
today. Likewise for education and education systems.
    As the vice chairman of this committee, Senator, you could 
go forward and request that all the other Federal agencies open 
their doors for Indian programming, Indian services, Indian 
resources. Demand that based on this relationship, this unique 
relationship our people have with this country, that those 
promises be fulfilled. Assist in creating learning environments 
through education, health care programming. Have the faith-
based organizations come to the table, be with us, and let's 
endeavor.
    Create better training programs for our youth, for peer 
counselors, for our people to become mental health, behavioral 
health aides under the CHR model that is so wonderful relative 
to being a liaison for health care and health care services. 
There needs to be setasides marked for tribal governments, 
tribal colleges, for each and every one of the Federal agencies 
to address this. It has to be a collaborative partnership. It 
cannot just be the Indian Health Service or SAMHSA. It has to 
be all of HHS, the Department of Education, the Department of 
Justice, Department of Commence, Department of the Interior, 
again, working together from a Federal, Congressional level 
down to the local level so it reaches our people.
    We do have models. There are many wonderful models out 
there of community-based partnerships that are culturally 
appropriate, that are working. One I can just cite off the top 
of my head is Don Coyhis' Wellbriety program in the White Bison 
non-profit organization out of Colorado, grass-roots movement 
addressing alcohol and substance abuse issues. Really literally 
working in each individual district and community to bring 
national momentum toward addressing alcohol substance problems 
in Indian country.
    Overall, there needs to be a sustained infusion of 
resources, both financial and human, to address this issue, and 
in a concerted and a partnership way. In closing, the word 
dakota, hopefully you understand or know it means friend or 
ally, it comes from a bigger word, wodakota, which means to be 
in harmony or balance. Indigenous culture has great beauty and 
understanding in this relationship we have with each other as 
human beings, the relationships we have with mother earth, and 
the things that we can bring forward relative to our knowledge 
of our healing powers, our resiliency that we do have here. It 
is working in many, many of our communities. It needs to be 
supported, it needs to be expanded.
    We need to do what these young ladies asked us to do. We 
need to have activities for them, every day, 24/7. And a 
variety, youth centers, whatever. It is happening, it could 
happen more.
    I thank you very much for having this today, Senator, and 
for your courage in taking the lead. [Phrase in native tongue.] 
We are all related.
    [Applause.]
    Senator Dorgan. Thank you very much.
    You talk about areas of despair, there are of course areas 
of inspiration as well. I mentioned that the three high 
schoolers who appeared today were very inspiring. You are not 
nearly as young, the three of you, but in many ways your 
individual stories are equally inspiring, in so many ways.
    I want to thank you very much for your testimony and say to 
Cynthia, based on what you finished with, this is the first of 
two hearings. We will hold a second hearing in Washington, DC 
on June 15. Senator McCain and I have agreed to hold this field 
hearing and then hold a second hearing. What we are attempting 
to do is provide some significant focus on a very serious 
problem.
    We will ask anyone who attends today or your acquaintances, 
anyone who wishes to submit formal testimony for the formal 
record which will be published by this committee, I would 
invite all of you to submit that testimony. You can submit it 
through my office and it will be made a part of this formal 
hearing record. I want to encourage you and urge you to do 
that, if you wish to.
    I am going to submit questions for this panel. What I would 
like to do is submit a list of questions to you to solicit from 
you the complete list of suggestions that you have of how you 
think our actions ought to address these sets of issues. You 
all have talked, and so have other witnesses, talked about the 
larger challenges. And there are many--health care, education, 
you name it, there are many challenges, no question about that.
    But at least providing focus on this issue, what are the 
specific lists of recommendations you would have for Senator 
McCain, myself and other members of the committee? I too think 
that we do not have nearly the funding we need in these areas, 
and that is a part of it. Then organizing the resources the 
right way to address these issues is another part.
    Let me ask for a show of hands, if I might, of those who 
have attended this hearing, how many in this room have either 
had a relative or an acquaintance of theirs commit or attempt 
suicide? Let me see some hands.
    [Show of hands.]
    Senator Dorgan. I think that, perhaps more than anything 
any of us can say, describes the severity of this and the 
urgency of this issue. I too have an Indian name, I was honored 
about 10 years ago by the Standing Rock Sioux Tribe, in a very 
inspiring ceremony, and they gave me the name Shantay Unweaka, 
which means Thinks With His Heart. I think that my passion is 
with all my heart and I hope yours and Senator McCain's and the 
members of our committee, we have to reach out to those young 
people whose lives are full of despair and hopelessness and say 
to them, you are not alone. You are just not alone. There are 
people who love you and care about you. We want to make the 
kinds of resources and assistance and help available to you.
    So that's what this is all about. Again, I am going to 
submit questions to this panel. I want to thank all those who 
have appeared today.
    I want to thank Jeanne Bumpus for coming out, representing 
Senator McCain. She is the Chief of Staff for the Majority and 
Sara Garland the Chief of Staff for the Minority. But there 
really isn't much of a majority or a minority in our committee. 
This is a committee in which all the members take seriously 
some very significant problems, and we want to work together to 
solve them.
    You have all been very, very patient today. You have sat 
through a rather lengthy hearing, and this young man is the 
most patient, what a wonderful way to start the life of a 2-
hour hearing and be quite as good as he has been. Let me thank 
all of you for being here in this hearing is officially 
adjourned.
    [Whereupon, the hearing was adjourned.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Tex G. Hall, Chairman, Mandan, Hidatsa and 
                             Arikara Nation

    Vice Chairman Dorgan and other members of the committee, thank you 
for the opportunity to provide testimony today on behalf of the Mandan, 
Hidatsa and Arikara Nation on a very important issue that continues to 
plague Indian country, and in particular, youth on the several 
reservations in the State of North Dakota. I apologize that I cannot be 
present today to testify personally; unfortunately I have preexisting 
commitment that would not allow me to be here today. However, I 
appreciate the invitation to provide my comments and more importantly, 
I appreciate the efforts that are being made by this committee and 
Senator Dorgan to address the problem with teen suicide among Native 
American Youth. I also appreciate and thank you for bringing this 
hearing here to North Dakota so that our tribal members are able to 
participate in this important process.
    I believe the recent tragedy on the Red Lake Reservation and the 
rash of suicides on the Standing Rock Reservation have caused all of us 
to open our eyes and realize that our youth are suffering and are at 
risk. First and foremost, it is absolutely essential that a 
comprehensive assessment/survey be conducted to determine why our 
children would even consider suicide an option. That could then be used 
to identify our youth who are at risk and develop strategies to address 
the problems our children are facing.
    I would like to begin by providing some background and statistics 
on suicide in general on the Fort Berthold Indian Reservation. I will 
also provide you with information regarding the lack of resources which 
hamper our ability to effectively address this issue and would like to 
conclude with my recommendations to the committee on how we can better 
serve the needs of our youth and prevent these tragic events from 
occurring.
    Members of the committee, I do not need to restate the stunning 
statistic rates for teen suicide among Native youth; you are very aware 
of these alarming numbers. I will present to you our most recent data 
regarding suicide on the Fort Berthold Reservation. Fortunately for my 
reservation, we have not had a successful suicide since 2003; we have 
however, had increasing numbers of attempts.
    1. November 2004 through December 2004: 9 gestures, ideations or 
attempts 
reported;
    2. January 2005 through April 2005: 18 gestures, ideations or 
attempts reported;
    3. Law enforcement responds to an average of 2-3 attempts per month
    Of course, as the case usually is in Indian country, the lack of 
resources is the major obstacle in preventing teen suicides and 
attempts. Two of the major components that are directly responsible for 
the intervention and prevention of suicide, mental health and law 
enforcement services, continue to face decreased funding. The following 
data represents a synopsis of those services as they are available on 
the Fort Berthold Reservation:

1. Mental Health Services:
  <bullet> \\\\\\$242,565 annual budget for I.H.S. to service a 
        population of approximately 7,000 individuals (roughly $354 per 
        person annually)
  <bullet> \\\\\\1 full-time licensed therapist (Director of Mental 
        Health)--approximately 40 percent of time is spent providing 
        direct patient care other time is spent on administration and 
        management
  <bullet> \\\\\\Full-time Social Services representative--does not 
        provide direct patient care or therapy
  <bullet> \\\\\\Full-time Clinical Social Worker position was 
        eliminated from the fiscal year 2005 budget due to lack of 
        funding
  <bullet> \\\\\\1 Contract Psychiatrist--1 day every other week (6-
        hour day--sees average of 25 patients--approximately 10 minutes 
        per patient)--primarily provides medication management
  <bullet> \\\\\\1 Contract Psychologist--1 day per week (6 hour-day--
        sees an average of 5-6 patients per day)
  <bullet> \\\\\\Suicide attempts are referred for hospitalization for 
        up to 72 hours off reservation--patient followup is minimal due 
        to lack of mental health services available locally

2. Law Enforcement:

  <bullet> \\\\\\Serves 6 tribal communities and over 980,000 acres of 
        land
  <bullet> \\\\\\1BIA Chief of Police and 1 lieutenant--primarily 
        administrators
  <bullet> \\\\\\6 BIA patrol officers
  <bullet> \\\\\\8 tribal polices officers employed under COPS Fast 
        Program
  <bullet> \\\\\\Since fiscal year 2003 Tribe has experienced loss of 7 
        tribal police officers due to COPS Fast budget cuts
  <bullet> \\\\\\Facing continued threat of elimination of COPS Fast 
        funding which would result in a loss of 8 officers and leave a 
        total of 8 officers servicing the entire Reservation to provide 
        24 hour coverage

    It cannot be denied that this lack of essential services has a 
direct impact on the ability to prevent and intervene in suicides. 
Another valuable resource for Indian country in the area of health care 
and mental health care needs that is facing elimination due to budget 
cuts is the Indians into Medicine (INMED), the Recruitment and 
Retention of Indian Nurses Program (RAIN) and the Indians into 
Psychology Program. These program are vital to improving the delivery 
of health and mental health care services in Indian country. We cannot 
afford to loose these programs.
    With those matters in mind, I make the following recommendations 
for immediate action:
    1. Increase Indian Health Service Budget to provide additional 
funding for mental health services with emphasis on funds for youth 
mental health services;
    2. Support the Tribal COPS Fast Program;
    3. Support continued funding for the INMED, RAIN, and INPSYCH 
programs; and
    4. Assess how public and tribal schools can better serve the mental 
health needs of children and identify at risk youth.

3. More long range recommendations include:

    1. An immediate study/assessment must to be completed to determine 
why our children are taking or attempting to take their own lives and 
to provide tools to identify at risk youth;
    2. Use the information from the assessment to address youth needs.
    Again, I thank you for this opportunity to provide information and 
hope that you will continue forward with finding solutions to address 
this problem.

[GRAPHIC] [TIFF OMITTED] T1299.001

[GRAPHIC] [TIFF OMITTED] T1299.002

[GRAPHIC] [TIFF OMITTED] T1299.003

[GRAPHIC] [TIFF OMITTED] T1299.004

[GRAPHIC] [TIFF OMITTED] T1299.005

[GRAPHIC] [TIFF OMITTED] T1299.006

[GRAPHIC] [TIFF OMITTED] T1299.007

[GRAPHIC] [TIFF OMITTED] T1299.008

[GRAPHIC] [TIFF OMITTED] T1299.009

[GRAPHIC] [TIFF OMITTED] T1299.010

[GRAPHIC] [TIFF OMITTED] T1299.011

[GRAPHIC] [TIFF OMITTED] T1299.012

[GRAPHIC] [TIFF OMITTED] T1299.013

[GRAPHIC] [TIFF OMITTED] T1299.014

[GRAPHIC] [TIFF OMITTED] T1299.015

[GRAPHIC] [TIFF OMITTED] T1299.016

[GRAPHIC] [TIFF OMITTED] T1299.017

[GRAPHIC] [TIFF OMITTED] T1299.018

[GRAPHIC] [TIFF OMITTED] T1299.019

[GRAPHIC] [TIFF OMITTED] T1299.020

[GRAPHIC] [TIFF OMITTED] T1299.021

[GRAPHIC] [TIFF OMITTED] T1299.022

[GRAPHIC] [TIFF OMITTED] T1299.023

[GRAPHIC] [TIFF OMITTED] T1299.024

[GRAPHIC] [TIFF OMITTED] T1299.025

[GRAPHIC] [TIFF OMITTED] T1299.026

[GRAPHIC] [TIFF OMITTED] T1299.027

[GRAPHIC] [TIFF OMITTED] T1299.028

[GRAPHIC] [TIFF OMITTED] T1299.029

[GRAPHIC] [TIFF OMITTED] T1299.030

[GRAPHIC] [TIFF OMITTED] T1299.031

[GRAPHIC] [TIFF OMITTED] T1299.032

[GRAPHIC] [TIFF OMITTED] T1299.033

[GRAPHIC] [TIFF OMITTED] T1299.034

[GRAPHIC] [TIFF OMITTED] T1299.035

[GRAPHIC] [TIFF OMITTED] T1299.036

[GRAPHIC] [TIFF OMITTED] T1299.037

                                 <all>

</pre></body></html>
